Office of Inspector General
    Audit Report


    DOT’S EFFORTS TO REDUCE
    SPENDING ON MANAGEMENT
  SUPPORT SERVICES CONTRACTS
       HAVE BEEN DELAYED

  Office of the Secretary of Transportation


       Report Number: ZA-2014-019
       Date Issued: January 15, 2014
                                                                                                                                 1




           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   ACTION: DOT’s Efforts To Reduce Spending on                                       Date:    January 15, 2014
           Management Support Services Contracts Have
           Been Delayed
           Office of the Secretary of Transportation
           Report Number ZA-2014-019

  From:    Mary Kay Langan-Feirson                                                        Reply to
                                                                                          Attn. of:   JA-60
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    Assistant Secretary for Administration
           Assistant Secretary for Budget and Programs
             and Chief Financial Officer


           Over the past decade, Federal spending on contracts for professional and technical
           support services such as engineering, information technology, acquisition
           planning, and program management quadrupled to approximately $40 billion—far
           outpacing the already fast growth in Federal contract spending. According to the
           Office of Management and Budget (OMB), these management support services
           contracts frequently create the potential for overreliance on contractors for
           mission-critical activities, and agencies are twice as likely to purchase these
           services using high-risk contract types, such as time-and-materials contracts.

           In November 2011, as part of its Campaign to Cut Waste, OMB announced a goal
           to reduce spending on management support services contracts by 15 percent (from
           fiscal year 2010 spending levels) by the end of fiscal year 2012. 1 OMB also called
           for the Chief Financial Officer (CFO) and Chief Acquisition Officer (CAO) of
           each agency to institute internal controls to monitor fiscal year 2012 obligations
           for management support services under new contracts and orders.


           1
             OMB memorandum, “Reduced Contract Spending for Management Support Services,” Nov. 7, 2011. OMB
           emphasized this initiative is not meant to discourage the use of contractors, and it expects agencies to continue to make
           good use of the expertise, innovation, and capabilities of contractors for management support activities.
                                                                                                                    2


We initiated this audit to evaluate the effectiveness of the Department of
Transportation’s (DOT) efforts in meeting OMB’s goals. Specifically, we (1)
determined DOT’s spending on management support services contracts for fiscal
years 2010 through 2012 and (2) assessed DOT’s efforts to meet OMB’s goal to
reduce management support services contract spending and implement controls for
awarding and managing those contracts.

In conducting this audit, we analyzed DOT’s management support services
spending data, 2 interviewed officials from DOT’s Office of the Senior
Procurement Executive (OSPE) and Office of the Chief Financial Officer (OCFO),
administered surveys to the CFO and Chief of the Contracting Office (COCO) 3 at
each DOT Operating Administration, and reviewed applicable OMB directives.
We conducted our audit between March 2013 and November 2013 in accordance
with generally accepted Government auditing standards. Exhibit A details our
scope and methodology.

RESULTS IN BRIEF
DOT’s spending on management support services contracts increased 17 percent
from fiscal years 2010 through 2012, from approximately $1.1 billion to almost
$1.3 billion. 4 Over half of DOT’s management support services contract
obligations involve high-risk contract types, such as time-and-materials and cost-
reimbursement contracts.

Despite increases in management support services contract spending, DOT
achieved contract cost savings through implementation of Phase 1 of its strategic
sourcing initiative. 5 To reduce overall contract spending, DOT launched a three-
phase strategic sourcing initiative in fiscal year 2011. DOT also laid the
groundwork for implementing internal controls that could improve its oversight
and use of management support services contracts. However, Phases 2 and 3 of the
strategic sourcing initiative that focus in part on management support services
spending have been delayed, and DOT did not have comprehensive plans and
policies for implementing Phases 2 or 3. In addition, DOT’s efforts to implement
internal controls for managing the Department’s management support services
contract spending have been similarly delayed. While DOT recently initiated

2
  To measure progress towards its 15-percent reduction goal, OMB reviewed management support services contract
obligations covered by 12 product and service codes reported in the Federal Procurement Data System-Next Generation
(FPDS-NG). Agency procurement officials use unique product and service codes—defined in the FPDS-NG Product
Service Code Manual—to best identify the products, services, and research and development that they purchase. See
exhibit C for more information on these product and service codes.
3
  COCOs are responsible for implementing internal controls and monitoring obligations under new contracts and orders
at their Operating Administrations.
4
  Based on DOT’s management support services contract spending on 12 product and service codes of interest to OMB.
5
  Strategic sourcing is a collaborative and structured process of analyzing an organization’s procurement spending and
using the information to make decisions about acquiring commodities and services more efficiently and effectively.
                                                                                                            3


actions that could provide a foundation for improving the Department’s use of
management support services contracts, such as revising its “Acquisition
Oversight and Risk Management Policy,” it has not implemented OMB’s
suggested internal controls, according to all 11 Operating Administrations’ CFOs
and COCOs we surveyed. Since the Department spends over $1 billion annually
on management support services, deferring efforts to focus on management
support services contracts has delayed potential opportunities to reduce spending
and better manage these contracts.

We are making recommendations to help DOT identify opportunities to control
spending and improve management of its management support services contracts.

DOT’S MANAGEMENT SUPPORT                                           SERVICES              CONTRACT
SPENDING HAS INCREASED
DOT’s spending on management support services contracts increased from
approximately $1.1 billion in fiscal year 2010 to nearly $1.3 billion in fiscal year
2012—an overall increase of 17 percent (see table 1). Over this 3-year period,
management support services contract spending represented about a quarter
($3.5 billion) of the Department’s total service contract obligations
($14.4 billion 6).

Table 1. DOT’s Management Support                                           Services           Contract
Spending, Fiscal Years 2010 Through 2012
                   Spending on management Percent change from fiscal
Fiscal year        support services contracts year 2010 spending
2010               $1.104 billion                      N/A
2011               $1.166 billion                      +5.62%
2012               $1.293 billion                      +17.12%
Source: OIG analysis of DOT’s FPDS-NG data on the 12 product and service
codes of interest to OMB.

DOT officials responsible for monitoring the agency’s implementation of the
OMB savings initiative acknowledged that their spending on these particular
management support services contracts increased during this period. DOT officials
provided us their computations of this increase, which were comparable to ours.

Additionally, 59 percent of DOT’s management support services contract
obligations involve high-risk contract types, such as time-and-materials and cost-


6
 The $14.4 billion includes spending on the 12 product and service codes of interest to OMB (which amounted to
$3.5 billion) and all other services purchased by DOT.
                                                                                                                          4


reimbursement contracts, which pose a risk of overspending because they provide
no direct incentive for contractors to control costs.

DOT ACHIEVED SOME COST SAVINGS THROUGH ITS
STRATEGIC SOURCING INITIATIVE AND HAS LAID THE
GROUNDWORK FOR IMPLEMENTING INTERNAL CONTROLS
Despite increases in management support services contract spending, DOT’s
strategic sourcing initiative has realized some contract cost savings in other areas.
DOT has also taken steps to lay a foundation that could improve the Department’s
oversight and use of management support services contracts. However, deferring
efforts to focus on management support services contracts has delayed potential
opportunities to reduce spending and better manage these contracts.

DOT’s Strategic Sourcing Initiative Targets Overall Contract Spending
To reduce overall spending on contracts, including management support services
contracts, DOT launched a three-phased strategic sourcing initiative in fiscal year
2011, which the Department plans to implement over a period of several years (see
table 2). DOT reported to OMB that it completed Phase 1 in December 2012 and
that its focus on near-term cost reduction opportunities saved the Department $201
million in fiscal year 2012. 7

Both Phases 2 and 3 of the initiative focus in part on management support services
spending. Although DOT started Phase 2 in calendar year 2013, at the time of our
review DOT had not yet started the part of Phase 2 that focuses on management
support services. DOT also has not yet established a start date for Phase 3. In
addition, DOT did not have comprehensive plans and policies for implementing
Phases 2 or 3 of its strategic sourcing initiative. For example, roles and
responsibilities for the OSPE and OCFO have not been assigned, and approaches
for achieving each phase have not been identified. As a result, it is unclear what
actions DOT will take to find opportunities for reducing its management support
services spending or what targets and milestones it will aim to achieve.




7
    We did not validate this figure, as DOT’s Phase 1 near-term cost reductions were not within the scope of our audit.
                                                                                             5


Table 2. DOT’s Strategic Sourcing Initiative
Phase     Focus                      Cost reduction opportunities              Status
Phase 1   Near-term cost             •   Printers and managed printing         Completed
          reduction opportunities    •   Personal computing devices            December
                                     •   Peripherals and office equipment      2012
                                     •   Servers, storage, network devices
                                     •   Enterprise postal solutions

Phase 2   Areas that require more    •   Management support services           To begin in
          time for analysis and      •   Furniture                             calendar
          implementation of cost-    •   Cellular services                     year 2013
          reduction strategies       •   Software and maintenance
Phase 3   Complex categories         •   Engineering services                  No specified
          that require a long-term   •   Program management support services   date
          approach                   •   Administrative support services
                                     •   Custodial services
Source: DOT

Since DOT spends over a billion dollars a year on management support services,
deferring efforts to focus on management support services contracts has delayed
potential opportunities to reduce spending and better manage these contracts. To
illustrate, if the Department aimed to reduce its management support services
spending by OMB’s goal of 15 percent, it could potentially save as much as $150
million each year on these types of contracts.

Recent Actions Could Provide a Foundation for Effective Internal
Controls for Management Support Services Contracts
While DOT recently initiated actions that could provide a foundation for
improving the Department’s use of management support services contracts, it has
not implemented OMB’s suggested internal controls. In its November 2011
memorandum, OMB requires agency CFOs and CAOs to institute appropriate
internal controls to monitor the obligation of fiscal year 2012 funds for
management support services under new contracts, new orders, or options under
existing contracts. The OMB memorandum also suggests six examples of controls
to reduce agency spending on management support services contracts (see exhibit
B). For example, OMB suggests that agency heads provide direction to program
offices by conveying expectations for reduced spending on management support
services, and that program offices identify specific actions for management
support services contracts that will be expiring or entering into option periods.
However, our survey of each Operating Administration’s CFO and COCO
determined that the Department has not implemented any of these internal
controls.
                                                                                                                6


Although DOT has not implemented the specific internal controls suggested by
OMB, the Department recently took action to improve internal controls for its
overall contracting function, which could serve as a foundation for improving the
Department’s oversight and use of management support services contracts.
Notably, in September 2013, DOT’s Deputy Secretary issued its updated
“Acquisition Oversight and Risk Management Policy,” which became effective on
October 1, 2013. 8 The policy requires the Senior Procurement Executive—in
consultation with DOT’s Acquisition Strategy Review Board, which includes the
Deputy CFO and Deputy Chief Information Officer—to review and approve
acquisition plans and supporting documents that meet any of the following three
criteria:

1. procurements with an estimated value greater than $20 million over the life of
   the contract;

2. high-risk type contracts or orders with an estimated value over $10 million; or

3. acquisitions that are identified as (a) significant because of their cross-agency
   impact, (b) critical because of their role in mission accomplishment, or (c)
   required to comply with Presidential initiatives.

Applying the policy’s executive review process to its management support
services contracts could help improve DOT’s acquisition of such services.
According to the revised policy, this review process will result in several benefits.
These include providing a Departmental review of business and acquisition
approaches used by the Operating Administrations to meet DOT’s mission
requirements and program objectives. It would also ensure that Federal and
Departmental initiatives are addressed—such as ensuring consideration of
strategic sourcing within DOT, emphasizing acquisition planning, using the
appropriate contract type, and promoting competition.

CONCLUSION

With the increased reliance on high-risk management support services contracts—
which currently total approximately $40 billion across the Government—it is
critical that agencies attempt to reduce spending and effectively monitor
obligations on these types of contracts. While DOT has reduced some contract
spending and laid the groundwork for implementing revised internal controls, its
spending on management support services contracts has increased. Until DOT
effectively implements its strategic sourcing initiative and additional internal
controls, DOT will likely continue to miss opportunities to better manage and

8
 This policy is applicable to all DOT organizations, personnel, and investments, with the exception of the Federal
Aviation Administration, which has independent authority for acquisition and personnel matters.
                                                                              7


oversee management support services contracts, which could lead to significant
savings.

RECOMMENDATIONS

We recommend that the Office of the Senior Procurement Executive and Office of
the Chief Financial Officer jointly take the following actions:

1. Develop a Departmentwide policy and comprehensive implementation plan to
   help DOT focus on its management support services spending and better
   manage its management support services contracts in Phases 2 and 3 of the
   Department’s strategic sourcing initiative. At a minimum, this implementation
   plan should (a) contain targets and milestones for reducing and controlling
   management support services contract spending, (b) identify strategies and
   approaches to achieve these targets and milestones, and (c) define key
   stakeholders’ roles and responsibilities for meeting these targets and
   milestones.

2. Implement additional internal controls, such as those cited in the Office of
   Management and Budget’s November 2011 memorandum, to ensure efficient
   and effective spending on management support services contracts, orders, and
   options under existing contracts.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided DOT’s OSPE and OCFO with our draft report on November 7, 2013,
and received a formal response on December 20, 2013. The response can be found
in its entirety in the appendix of this report. The Assistant Secretary for
Administration concurred with our two recommendations. However, additional
actions are needed to ensure DOT fully meets the intent of recommendation 1.
Specifically, we encourage DOT to document the policy that the Acquisition
Strategy Review Board (ASRB) intends to use to focus its reviews of management
support services contracts. DOT’s response to recommendation 1 does not explain
how the ASRB process will result in the implementation of a DOT-wide policy for
management support services contracts. DOT’s new Acquisition Oversight and
Risk Management Policy does not focus exclusively on management support
services contracts and covers only high-dollar acquisitions. Accordingly, we
request that DOT provide us with additional information on how it will
specifically address management support services contracts through the ASRB
process. Until we receive that information, we consider recommendation 1 open
and unresolved.
                                                                               8


For recommendation 2, DOT provided planned corrective actions that address the
intent of our recommendation and appropriate timeframes for implementation.
Accordingly, we consider recommendation 2 resolved but open pending
completion of the planned actions.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we request that
DOT provide additional information for recommendation 1 as described above.
We request that DOT provide this information within 30 days of this report. Until
then, we consider recommendation 1 open and unresolved. We consider
recommendation 2 resolved but open pending completion of the planned actions.

We appreciate the courtesies and cooperation of DOT representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366–5225; Tony Wysocki, Program Director, at (202) 493–0223; or Dana Short,
Project Manager at (202) 366–2089.

                                       #

cc:   DOT Senior Procurement Executive
      DOT Audit Liaison (M–1)
                                                                                9



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit between March 2013 and November 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our audit objectives were to (1) determine DOT’s spending on management
support services contracts for fiscal years 2010 through 2012 and (2) assess DOT’s
efforts to meet OMB’s goal to reduce management support services contract
spending and implement controls for awarding and managing those contracts. Our
audit scope included DOT’s Office of the Secretary, Office of the Senior
Procurement Executive, the Office of the Chief Financial Officer, and all
Operating Administrations.

To address our objectives, we obtained and analyzed OMB memorandums and
applicable DOT guidance related to management support services contracts. We
also developed and administered surveys to the CFO and COCO of all
11 Operating Administrations regarding their controls for planning and managing
spending on management support services contracts (100 percent of the CFOs and
COCOs responded). We then analyzed the survey responses and followed up with
agency officials to verify their responses.

To further identify actions DOT has taken to reduce management support services
contracts, we reviewed all Strategic Acquisition Council meeting minutes from
September 2010 to May 2013 and the Administrative Savings Team meeting
minutes from June to November 2012.

We also interviewed officials from DOT’s Office of the Senior Procurement
Executive; DOT’s Office of the Chief Financial Officer; Chief of the Contracting
Office, and the CFO’s of the three Operating Administrations that obligated
almost 90 percent of the Department’s management support services obligations
for fiscal years 2010 through 2012: the Federal Aviation Administration (FAA),
the Research and Innovative Technology Administration/Volpe Center, and the
Federal Transit Administration.

To measure DOT’s management support services contract spending for fiscal
years 2010 through 2012, we analyzed DOT’s certified FPDS-NG data on the
12 product service codes of interest to OMB. To estimate potential savings, we
calculated the amount that DOT would need to reduce its management support
services spending to achieve OMB’s 15-percent reduction goal. We performed this
calculation using DOT’s spending on management support services during fiscal


Exhibit A. Scope and Methodology
                                                                                10


years 2010 through 2012 on the 12 product and service codes of interest to OMB,
which totaled approximately $1 billion annually. FAA had a significant data error
in FPDS, which FAA officials stated had been corrected by April 2, 2013.
Therefore, we extracted FAA’s FPDS data on April 30, 2013.

While we did not audit FPDS-NG, we performed various checks to assess the
reliability of DOT’s FPDS-NG contract data for fiscal years 2010 through 2012 on
the 12 product and service codes of interest to OMB. In addition, we interviewed
DOT officials responsible for the agency’s FPDS-NG data to understand the data
limitations related to our audit. We determined that FPDS-NG data was
sufficiently reliable for the purpose of this audit for the following reasons:

• From our universe of DOT’s FPDS-NG contracts covered by the 12 product
   and service codes of interest to OMB, we randomly selected and verified
   60 contracts by comparing them to Delphi, DOT’s official accounting
   management system. This verification provided sufficient confirmation of the
   contracts’ existence. We also compared the product and service codes from this
   universe to those that DOT reported in its Service Contract Inventory Report to
   OMB for fiscal years 2010 through 2012, which confirmed that DOT did not
   omit codes related to this audit.

• Our use of FPDS-NG is consistent with OMB’s guidance to agencies for
   reducing spending on management support services contracts. Specifically
   OMB directed agencies to use FPDS-NG to identify covered contracts and the
   size of the reduction required to achieve the 15-percent spending reduction.

• Finally, we verified DOT’s calculation of its increase in management support
   services spending on the 12 product and service codes of interest to OMB by
   independently performing the same calculation. Our calculation verified that
   DOT’s calculation was reasonably accurate. We performed our verification
   using FPDS-NG data for fiscal years 2010, 2011, and 2012, which DOT
   certified as accurate at the end of each fiscal year. According to DOT’s
   certification, over these 3 years, the product and service codes were 98-percent
   a curate on average and the dollars obligated were 99-percent accurate on
    c




   average. We assessed the actions DOT has taken related to management
   support services contracts against OMB criteria and best practices, such as its
   (1) memorandum, Reduced Contract Spending for Management Support
   Services, November 7, 2011; (2) memorandum, Service Contract Inventories,
   November 5, 2010; and (3) memorandum, Conducting Acquisition
   Assessments under OMB Circular A-123, May 21, 2008.




Exhibit A. Scope and Methodology
                                                                   11


To gain insight on OMB’s methodology used to compute the reduction in
management support services spending for the Department, we spoke with
officials at the Office of Federal Procurement Policy.




Exhibit A. Scope and Methodology
                                                                                                12



EXHIBIT B. OMB’S EXAMPLES OF CONTROLS FOR MANAGING
AND MONITORING OBLIGATIONS FOR MANAGEMENT
SUPPORT SERVICES CONTRACTS


1   Direction from the agency head or other senior ranking official to program offices conveying
    expectations for reduced spending on management support services.

2   A requirement for programs that are the primary users of management support services to
    identify to the agency’s CFO Office specific planned actions for the upcoming fiscal quarter
    on their largest management support contracts that will be expiring or entering into option
    periods and actions taken in the prior fiscal quarter against planned contract actions.

3   A direction for components or programs to include justifications with their contract
    requisitions for management support services to establish that the requested work is
    essential.

4   An instruction for officials with budget authority at the program level to obtain higher level
    approval before a requisition for management support services is submitted to the
    contracting office.

5   A requirement that contracting officers not take action on requisitions for management
    support services that would obligate FY2012 funding unless the requisition includes
    justifications and/or higher level approvals.

6   The identification of one or more oversight officials who regularly monitor component spend
    rates and actions taken, and resolve disagreements between components regarding the
    relative importance of resource requests for management support services.
Source: OMB memorandum, Reduced contract spending for management support services,
Attachment 2, Nov. 7, 2011.




Exhibit B. OMB’s Examples of Control s for Managing and Monitoring
Obligations for Management Support Services Contracts
                                                                                     13



EXHIBIT C. TWELVE PRODUCT AND SERVICE CODES OF
INTEREST TO OMB
According to the U.S. General Services Administration, which oversees
FPDS-NG, agency procurement officials are to use unique product and service
codes defined in the FPDS-NG Product Service Code Manual to best identify the
products, services, and research and development that they purchase. The 12 codes
of interest to OMB under its savings initiative are shown below.

Product and      Description
Service Code
D302             ADP systems development services
D307             Automated information system services
D310             ADP back-up and security services
D314             ADP acquisition support services
R408             Program management/support services
R413             Specification development services
R414             Systems engineering services
R421             Technical assistance
R423             Intelligence services
R425             Engineering and technical services
R497             Personal services
R707             Management services/Contract and procurement support

Source: OMB memorandum, Reduced contract spending for management support services,
Attachment 1, Nov. 7, 2011.




Exhibit C. Tw elve Product and Service Codes of Interest to OMB
                                                            14



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Anthony Wysocki                         Program Director

Dana Short                              Project Manager

Angela Hailes                           Analyst

David Lahey                             Auditor

Kathryn Novicky                         Analyst

Karen Sloan                             Writer-Editor

Christina Lee                           Writer-Editor

Petra Swartzlander                      Statistician

William Savage                          IT Specialist

Fritz Swartzbaugh                       Associate Counsel




Exhibit D. Major Contributors to This Report
                                                                                               15


APPENDIX. AGENCY COMMENTS



U.S. Department of                      Assistant Secretary                 1200 New Jersey Ave., SE
Transportation                          for Administration                  Washington, DC 20590
Office of the Secretary
of Transportation

                                     December 20, 2013


MEMORANDUM TO:                Mary Kay Langan-Feirson
                              Assistant Inspector General for Acquisition and
                               Procurement Audits

FROM:                         Brodi Fontenot
                              Assistant Secretary for Administration

SUBJECT:                      Department of Transportation’s (DOT) Response to Office of
                              Inspector General (OIG) Draft Report: DOT’s Efforts To
                              Reduce Spending on Management Support Services Contracts
                              Have Been Delayed

The Department of Transportation (DOT) is committed to achieving reductions in
management support services spending. DOT has made significant progress in establishing
the formal governance mechanisms required to effectively oversee its portfolio through the
Acquisition Strategy Review Board (ASRB) approval of proposed acquisition strategies
within defined criteria; and, implementation of the Department’s Strategic Sourcing program.
The Secretary’s recently established “3E” (Efficiency, Effective, and Economic) program will
also provide opportunities for additional efforts with the goal of improving the effectiveness
of our services and programs. All of these steps will contribute to the Department’s ability to
understand how its investments in support services can more efficiently contribute to the
mission.

In response to the Administration’s 21st Century Government Initiative, the Secretary tasked
the Department with identifying candidates for administrative cost savings. Both career and
political staff across the Department generated areas where improvements are needed in order
to position DOT to operate more efficiently in the 21st Century. In the area of Smarter
Information Technology (IT) Purchasing Initiatives, four information technology commodities
were identified as candidates for strategic sourcing:

1.         Wireless Services
2.         Certification & Accreditation (C&A) Security Support Services
3.         Oracle Database Software
4.         Cloud Services



Appendix. Agency Comments
                                                                                               16


The Department will conduct a spend analysis/business value assessment for these
commodities/services to determine benefits of moving forward on a Department-wide contract
vehicle.

This effort has the potential to reduce overall Department costs for these types of services and
positively impact the service contract inventory. Most importantly, the Smarter IT Purchasing
Initiative plans to operationalize the strategic sourcing process for IT procurements; increase
awareness and use of existing DOT/multi-modal IT contracts; and establish a repeatable
process for driving future IT Strategic Sourcing Initiatives. That repeatable process will
include key decision points for (Chief Information Officer) CIO Core and Acquisition
Strategy Review Board review and approval.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a Department-wide policy and comprehensive implementation
plan to help DOT focus on its management support services spending and better manage its
management support services contracts in Phase 2 and 3 of the Department’s strategic
sourcing initiative. At a minimum, this implementation plan should (a) contain targets and
milestones for reducing and controlling management support services contract spending, (b)
identify strategies and approaches to achieve these targets and milestones, and (c) define key
stakeholders’ roles and responsibilities for meeting these targets and milestones.
.
Response: Concur. The ASRB process works to develop and maintain a Department-wide
policy and comprehensive plan to reduce the number of management support service contracts
across DOT. The ASRB works jointly with the DOT Integrated Program Planning &
Management process to identify procurements that are considered high risk to include cost
reimbursable and management support service contracts.

The Chief Acquisition Officer (CAO) and Chief Financial Officer (CFO) will work jointly to
build upon the ASRB process to establish an implementation plan that contains milestones,
identifies strategies, and defines key stakeholders’ roles and responsibilities. This effort will
be completed by June 30, 2014.

Recommendation 2: Implement additional internal controls, such as those cited in the Office
of Management and Budget’s November 2011 memorandum, to ensure efficient and effective
spending on management support services contracts, orders, and options under existing
contracts.

Response: Concur. The CFO and CAO will work together to institute appropriate internal
controls to manage and monitor obligations of funds for management support services under




Appendix. Agency Comments
                                                                                            17


new contracts, new orders, or options under existing contracts. Consideration is being given
to developing an additional agenda item at the Acquisition Strategy Review Board meetings
specifically focused on these enhanced internal controls. This effort will be completed by June
30, 2014.




Appendix. Agency Comments
